No.

IN THE
SUPREME COURT OF THE UNITED STATES

LEWIS ARCHER
Petitioner
vs.

AMERICA’S FIRST FEDERAL CREDIT UNION
Respondent

PROOF OF SERVICE

a

I. Lewis Archer, do swear or declare that on this date,
ApriDft 2021. as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses and telephone numbers of those served are as follows^
Terrence W. McCarthy (Counsel for America’s First Federal Credit Union)
LIGHTFOOT, FRANKLIN & WHITE, L.L.C.
The Clark Building
400 North 20th Street
Birmingham, Alabama 35203-3200
(205) 581-1512
I declare unde^penalty of perjury that the foregoing is true and correct.

RECEIVED

Executed on

MAY 3 - 2021
L.

supIr#meFcToIurtLF,iIk

(^ignattire)'
■e
■u

rh

MY COMMISSION EXPIRES DECEMBER 14,2022

